(Memorandum Opinion and Judgment, decided May 18, 2021, DC Court of Appeals)

APPENDIX A

DISTRICT OF COLUMBIA COURT OF APPEALS
No. 19-CV-1253

£ 0 L

Mechele R. Parker, Appellant,

v.

MOT8202I

Sara LaRosa, et a/., Appellees.

OISTRfCT OF COLUMBIA
COURT OF APPEALS

Appeal from the Superior Court
of the District of Columbia
(CAB-5601-19)
(Hon. Kelly A. Higashi, Trial Judge)
(Submitted March 31,2021

i

Decided May 18,2021)

Before Thompson and Deahl, Associate Judges, and Ferren, Senior Judge.
MEMORANDUM OPINION AND JUDGMENT
Per Curiam: Mechele Parker sued several security and police officers who
she claims conspired to prevent her from returning to her job at the Pension Benefit
Guaranty Corporation. They did so, she maintains, by issuing her a “bogxis” barring
notice and preventing her from entering PBGC's headquarters. Parker asserts this
conduct violated her civil rights, defrauded her, and otherwise wronged her in a
variety of ways. The trial court dismissed her complaint for failure to state a claim
on which relief might be granted. Parker now appeals that ruling. Because we agree
with the trial court that Parker has not articulated a viable cause of action, we affirm
the court's dismissal of her suit.
I.
Parker worked for the Pension Benefit Guaranty Corporation from 1997 to
2009. She claims PBGC wrongfully terminated her employment, but later in 2009,
an administrative tribunal ordered the agency to reinstate her. She asserts that PBGC
never complied with that order. So in August 2019, Parker visited PBGC's

2

headquarters intent on meeting with the agency’s human resources department to
“begin processing” the 2009 order. She was precluded from entering, however, by
the building’s security officers, including appellee Sara LaRosa of Admiral Security.
The officers informed Parker that she was not an employee and issued her a barring
notice, as they had done in the past. The officers then asked Parker to leave, and
ultimately had her removed from the building.
Parker initiated this lawsuit against LaRosa and four other security and/or law
enforcement officers.1 The gravamen of her complaint is that the officers conspired
to prevent her from restoring her employment with PBGC. The complaint lists five
causes of action: (1) “Law Enforcement Oath of Honor” / “Law Enforcement Oath
of Office”; (2) “Color of Law”; (3) “Probable Cause”; (4) violation of 18 U.S.C. §
242; and (5) “Constitutional Violations.” Her pleadings also make reference to other
tortious behavior, such as unlawful arrest, fraud, and negligence. She initially
prayed for $1.5 million in damages from each defendant, but later claimed losses to
the tune of $700 million. She additionally seeks $1.7 billion in punitive damages.
LaRosa moved to dismiss the complaint for failure to state a claim, and the
court granted her motion.2 “[E]ven when accepting the allegations as true and
making all reasonable inferences in [Parker]’s favor,” the court explained, her
“vague allegations do not state a claim for relief.” Parker now appeals that ruling.3
The complaint identifies these individuals as “Officer Mabry,” “D. Collins”
from PBGC’s “Special Forces,” “Officer A. Brown, Badge No. 4284,” and “Officer
A. Brown, Badge No. 15797.” From Parker’s pleadings, it’s unclear which
allegations pertain to which individuals. Rather than specifying who did what, she
lumps the officers together throughout the complaint, referring to them collectively
as “Defendants” and “Defendants/Officers.” With the exception of LaRosa, see
infra note 2, we follow course and refer to them as “the officers.”
2 It seems LaRosa is the only defendant who made an appearance in the trial
court. That is perhaps because she was the only defendant who was properly served,
though the record is unclear.
3 Parker also purports to challenge a court order “denying” her motion for a
preliminary injunction “to enjoin the co-conspirators” from, among other things,
barring her entry to PBGC’s office. The court never entered such an order, however.
It instead dismissed the entire action, thereby obviating Parker’s motion. Because

3

II.
Parker first challenges the court’s holding that her complaint fails to “clearly
identify what claims are being brought.” Although she does not indicate how that
ruling is erroneous, we nonetheless consider her assertion below and disagree with
it. Afterward, we take up Parker’s remaining contentions—namely, that the court
misinterpreted 18 U.S.C. § 242, overlooked evidence corroborating her claims, and
violated her due process rights by dismissing her suit.4 Perceiving no error, we
affirm.
A.
To withstand a motion to dismiss, a complaint must state sufficient facts to
establish the elements of a plausible claim for relief. Potomac Dev. Corp. v. District
of Columbia, 28 A.3d 531, 544-45 (D.C. 2011); see also Super. Ct. Civ. R. 12(b)(6).
This court reviews de novo an order dismissing a complaint for failure to meet that
standard. Peterson v. Washington Teachers Union, 192 A.3d 572, 575 (D.C. 2018)
In doing so, we accept as true all factual allegations in the complaint and “construe
all facts and inferences in favor of the plaintiff.” Solers, Inc. v. Doe, 977 A.2d 941,
947 (D.C. 2009).
The trial court correctly held that Parker’s complaint failed to state a claim
upon which relief could be granted. Even construing the pleadings liberally, as we
do in this jurisdiction for pro se litigants, Black v. D. C. Dep’t ofHuman Servs., 188
A.3d 840, 847 (D.C. 2018), Parker’s complaint fails to give the officers “fair notice”
of what she claims. See In re Est. of Curseen, 890 A.2d 191, 194 (D.C. 2006)
(complaint is sufficient if it contains a “short and plain statement” giving the
defendant “fair notice of what the plaintiffs claim is and the grounds upon which it
rests”) (citing, inter alia, Super. Ct. Civ. R. 8(a)(2)). Her complaint centers on five
purported theories of liability, most of which have no basis in law. The first—that
that ruling was correct, see infra, we have no occasion to consider whether the court
erred in impliedly rejecting Parker’s motion.
4 Parker’s brief identifies twenty issues she is raising in this appeal. We
address only those that assign some error to the trial court’s dismissal order.

4

the officers violated their oaths of office—was properly rejected by the trial court as
lacking a legal foundation. Because “[t]he oaths that government officials take in
assuming their office do not create any private right of action,” claims premised on
a violation of such oaths “must be dismissed.” Caldwell v. Obama, 6 F. Supp. 3d
31, 47 (D.D.C. 2013) (collecting cases).
Parker’s second and third theories are equally meritless. Neither “Color of
Law nor Probable Cause” is a viable cause of action. To be sure, acting under
“color of law,” meaning under a “pretense of law,” Screws v. United States, 325 U.S.
91, 111 (1945), is an essential element of certain constitutional tort claims against
law enforcement, see Woodward & Lothrop v. Hillary, 598 A.2d 1142, 1145 (D.C.
1991). But it is not a tort in and of itself. Similarly, “probable cause” is a legal
standard in the criminal realm5; it is not a civil cause of action. See Jefferson v.
United States, 906 A.2d 885, 887 (D.C. 2006). To the extent Parker intended to
assert that the officers arrested her without probable cause, thus infringing upon her
Fourth Amendment rights and/or falsely imprisoning her, she failed to plead
essential elements of those claims.6 In particular, nowhere does her complaint
indicate that she was either arrested or detained, only that the officers threatened to
have her arrested and subsequently “had [her] removed from the building.” But even
if she was in fact arrested or detained, Parker pled no facts (as opposed to vague
accusations) that would place the officers on notice as to how the arrest comprised
anything but the lawful removal of a trespasser. See D.C. Code § 22-3302 (2020
Supp.).

5 An officer has probable cause to arrest an individual when she has
“reasonably trustworthy information . . . sufficient to warrant a reasonably prudent
person” to believe the suspect has “has committed or is committing an offense.”
District of Columbia v. Minor, 740 A.2d 523, 529 (D.C. 1999) (cleaned up).
6 See Minor, 740 A.2d at 529-31 (affirming jury verdict for false arrest in
violation of the Fourth Amendment where officer arrested individual without
probable cause and was not shielded from liability by qualified immunity); Enders
v. District of Columbia, 4 A.3d 457, 461 (D.C. 2010) (“[T]he essential elements of
false imprisonment are: (1) the detention or restraint of one against his or her will,
and (2) the unlawfulness of the detention or restraint.”) (citation omitted).

5
Violations”
A/c. Parker
r. , s Constitutional
i,
s cause of action is likewise inadequate
Most fundamentally she fails to identify which of her constitutional rights the

prosecuting obstruction ofyustice b^Lw^L'eme^ffice^ShguidaSoe0'
not confer a civil remedy upon private citizens.
At times Parker’s pleadings mention in passing other torts, such as fraud
nnni'nfT’
tlnvasi0" of Privacy- But even assumin8
meant to raise them,’
none of those claims is adequately pled either.8 For each tort, Parker fails to assert
any facts pertaining to certain essential elements. Take fraud, for example: While
she claims the officers issued her a “bogus” barring notice, which one might read to
made ^“1^1^ °?■“ ^ statement’ she does not allege the statement was
made with knowledge of its falsify” or an “intent to deceive,” nor does she suggest
that she detrimentally relied on it. See Bennett, 377 A.2d at 59-60. Each of the
other ailuded-to claims suffers from similar defects.
B.
We turn to Parker’s

■“f '»?•**• 8

ac ion. While it is not clear the trial court endorsed that view of § 242, it is in any
event a correct fiew On its face, § 242 is a criminal statute that creates no private
Sfe 18 U.S.C. § 242 (“Whoever [commits proscribed conduct] . . .
shall be fined under this title, or imprisoned”); see also, e.g., Lewis v Green 629 F
S0pp. 546, 554 (D.D.C. 1986) (section 242 does „o, -giv! else to , civ""lion for

7 Compare ComPL at 7 with U.S. Dep’t of Justice, Civil Rights Div. Law
hZw/CEMENT /™?rUCT’ www.justice.gov/crt/law-enforcement-misconduct
https.//perma.cc/58EP-PUU9 (last visited May 13, 2021).
* See Bennett v Kiggins, 377 A.2d 57, 59-60 (D.C. 1977) (setting forth
iciSRW^ °f comrnon law fraud); Toy v. District of Columbia, 549 A.2d 1, 6 (D.C.
loonl ^®.emen!s °f negligence); Wolf v. Regardie, 553 A.2d 1213, 1216-20 (DC
1989) (discussing the various invasion-of-privacy torts and their elements).

6
damages”) (collecting cases). The court thus committed no error in rejecting
Parker’s claim under § 242.
Parker next contends that, in dismissing her suit, the trial court’s findings were
not supported by the record and ignored evidence corroborating her claims. She is
mistaken. Because this suit never made it past the motion-to-dismiss stage, the trial
court correctly assumed the facts pled by Parker were true. See Solers, Inc., 977
A.2d at 947 (“Since we take the facts alleged in the complaint as true, the
presentation of evidence ... is not required.”) (citation and alterations omitted)
Despite that assumption, the court concluded Parker failed to assert any plausible
claim for relief, a conclusion we agree with. See infra. There was simply no
question of evidentiary sufficiency before the trial court; it made no factual findings
that could be undermined by any amount of evidence.
Finally, Parker argues the court denied her due process by dismissing her suit
without providing her an opportunity to contest dismissal at an in-person hearing It
did not Civil litigants, are not “entitle[d] ... to a hearing on the merits in every
case. Logan v. Zimmerman Brush Co., 455 U.S. 422, 437 (1982). Courts “may
erect reasonable procedural requirements for triggering” certain due process
protections. Id.-, see generally Super. Ct. Civ. R. 8(a). Courts are permitted to rule
on motions to dismiss absent in-person hearings without offending due process.
E.g, Greene y. WCI Holdings Corp., 136 F.3d 313, 316 (2d Cir. 1998) (“Every
circuit to consider the issue” has held in-person hearings are not required so long as
litigants have “the opportunity to present [their] views to the court,” often through
written rather than oral argument”) (collecting cases).
III.
The order of the trial court is affirmed.
So ordered.

7

ENTERED BY DIRECTION OF THE COURT:

a.

JULIO 4} CASTILLO
Clerk of the Court

Copies sent to:
Honorable Kelly A. Higashi
Director, Civil Division
QMU
Mechele R. Parker
Tiffany M. Releford, Esquire

THIS IS THE CASE OF MECHELE R. PARKER, APPELLANT/PETITIONER VS. SARA LAROSA, ETAL.
THESE ARE SOME EXHIBITS AS EVIDENCE THAT I WAS NOT ABLE TO PRODUCE WITH MY APPELLATE
BRIEF.
I DO NOT HAVE ENOUGH MONEY TO MAKE THE REQUISITE PAPER COPIES TO ATTACH TO THIS PETITION.

Date:

.1t JLt&l

Signature:
Mechele R. Parker, Appellant/Petitioner
Pro Se

SUPERIOR COURT OF THE DISTRICT OF COLUMBIA
CIVIL DIVISION—CIVIL ACTIONS BRANCH
MICHELE R. PARKER,
Plaintiff,

Civil Case No. 2019 CA 005601 B
Civil II, Calendar I
Judge Kelly A. Higashi

v.
SARALAROSA, et al.,
Defendants.

ORDER GRANTING MOTION TO DISMISS PLAINTIFF’S COMPLAINT
This matter comes before the Court on Defendant Sara LaRosa’s Motion to Dismiss
Plaintiff s Complaint, filed on October 9, 2019 and Plaintiffs opposition thereto. For the
reasons stated herein, the Court grants Defendant’s Motion.
Background
On August 26, 2019, Plaintiff Parker, pro se, filed a complaint against several Officers
stationed at or around the Pension Benefit Guaranty Corporation [“PBGC”] Office at 1200 K
Street, NW, Washington, DC 20005. Plaintiffs complaint appears to allege that Defendants
have conspired to utilize a variety of illegal or otherwise impermissible methods to prevent
Plaintiff from being restored to her Administrative Officer position and receiving back-pay
pursuant to a 2009 Order from AJ Elizabeth J. Bogle. More specifically, Defendants allegedly
harassed Plaintiff by issuing five-year “bogus barring notices,” removing Plaintiff from the
PBGC premises, and generally “conning, threatening, harassing, and gang-stalking” her.
Plaintiffs Complaint does not clearly identify what claims are being brought, but does
attach the Law Enforcement Oath of Honor, the Law Enforcement Oath of Office, the definition
of “Color of Law,” an iteration of the 4th Amendment of the U.S. Constitution and its demand
that law enforcement prove probable cause, the text of a statute criminalizing the deprivation of
1

rights under color of law (18 U.S.C. Section 242), and the text of what appears to be Department
of Justice [“DOJ”] guidance expressing the policy of the agency to prosecute “instances of
obstruction ofjustice” by law enforcement officers.
Standard
A motion to dismiss under Super. Ct. Civ. R. 12 (b)(6) tests the legal sufficiency of a
complaint, Carey v. Edgewood Mgmt. Corp., 754 A.2d 951, 954 (D.C. 2000). To withstand a
motion to dismiss, a complaint must state sufficient facts to establish the elements of a plausible,
legally cognizable claim. Potomac Dev. Corp. v. District ofColumbia, 28 A.3d 531, 544 (D.C.
2011). When determining whether to grant the motion, the court must accept all allegations
within the complaint as true and view all facts and draw all reasonable inferences in the
plaintiff s favor. Hillbroom v. PricewaterhouseCoopers LLP, 17 A.3d 566, 572 (D.C. 2011).
The District of Columbia is a notice pleading jurisdiction. Sarete, Inc. v. 1344 U Street
Limited Partnership, 871 A.2d 480, 497 (D.C. 2005). A complaint will be deemed legally
sufficient if it contains “a short and plain statement of the claim showing that the pleader is
entitled to relief,” Super. Ct. Civ. R. 8 (a)(2), and “fairly puts the defendant on notice of the
claim against [it].” Scott v. District of Columbia, 493 A.2d319, 323 (D.C. 1985). However,
“[tjhreadbare recitals of the elements of a cause of action, supported by mere conclusory
statements, do not suffice” for a complaint. Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009).
“Courts in this jurisdiction are required to construe pro se pleadings liberally.” Black v.
District ofColumbia Dep’t of Human Servs., 188 A.3d 840, 847 (D.C. 2018). “A court’s duty to
construe a pro se complaint liberally does not permit a court to uphold completely inadequate
complaints.” Elmore v. Stevens, 824 A.2d 44, 46 (D.C. 2003). Furthermore, this duty “does not

2

require that the court ‘conjure up unpled allegations.”’ Vaughn v. United States, 579 A.2d 170,
176 (D.C. 1990) (quoting McDonald v. Hall, 610 F.2d 16, 19 (1st Cir. 1979)).
Analysis
Defendant LaRosa requests that the Court dismiss Plaintiffs complaint for failure to state
a claim under Super. Ct. R. 12(b)(6) and for failure to provide a “short and plain statement of the
claim” that gives the Defendant “fair notice of what the ... claim is and the grounds upon which
it rests.” Tingling-clemmons v. D.C., 133 A3d 241, 245 (D.C. 2016) (quoting Bell Atlantic Corp.
v. Twombly, 550 U.S. 544, 555 (2007)). The Court notes that while Rule 8(a) does not
necessarily provide an independent cause of action, “[a] complaint should be dismissed under
Rule 12(b)(6) if it does not satisfy the pleading standard in Rule 8(a).” Potomac, 28 A.3d at 543.
In support of its Motion to Dismiss, Defendant argues that the Complaint is “replete with
conclusory statements which fail to contain any factual allegations which reasonably would put
Defendant on notice of claims against her.” According to Defendant, Plaintiff has failed to
allege sufficient facts to state a claim for relief that is plausible on its face. Furthermore, some of
the claims implied by Plaintiffs Complaint have no basis in law. Specifically, Defendant asserts
that Plaintiffs allusion to Title 18 U.S.C. § 242 cannot show Plaintiff is entitled to relief as that
law “is a penal statute which does not create a private right of action, civil cause of action, nor an
action for damages for violation.” Additionally, Plaintiffs references to “oath of honor and oath
of office, probable cause, and constitutional violations” merely “recit[e] the supposed law with
regard to these principles, Plaintiff has not stated any factual allegations to support such causes
of action.”
Plaintiff s Response contends that she “has set forth detailed allegations that fulfill each
and every pleading requirement under 9(b)” and that the “Complaint is sufficiently clear and

3

detailed” insomuch as Plaintiff has “adequately alleged the ‘who, what, where, when, and how’”
of the Defendant’s fraudulent scheme. Plaintiff s Response states that the Complaint describes
that various Admiral Security Officers, MPD employees, and PBGC Security employees agreed
to a conspiratorial agreement to perpetuate fraud on Plaintiff “via making false accusations,
drafting bogus barring notices, protecting employees and themselves that capitalized via the
fraud, gangstalking, bullying, and various egregious acts from 2008 through 2019.” This fraud
featured the repeated abuse of a “mind-bending technology for scripting and staging the same
routines for favors ... from 2008 to May 28, 2009 forward” causing over “$700 million” in
damages. Plaintiff further seeks $1 billion in punitive damages.
The Court grants Defendant LaRosa’s Motion to Dismiss Plaintiffs Complaint. Reading
the Complaint in the light most favorable to Plaintiff and taking all allegations as true, Plaintiffs
complaint simply lacks the factual allegations sufficient to constitute a claim entitling Plaintiff to
relief. Plaintiff s complaint essentially asserts, with very little factual substance, that Defendants
conspired in their refusal to comply with a Court Order reinstating Plaintiffs position with the
PBGC. "Liability for civil conspiracy depends on performance of some underlying tortious
act"; "[civil] conspiracy is not independently actionable; rather it is a means for establishing
vicarious liability for the underlying tort." Halberstam v. Welch, 705 F.2d 472, 479 (D.C. Cir.
1983).
Plaintiff s Response provides more detail concerning the alleged fraud, but aside from the
Complaint’s indication that Defendants are issuing “bogus barring notices,” the Court and
Defendants are left to guess at the form this fraud is alleged to have taken. Even if the Court
were to construe the issuance of a false “barring notice” as fraud, Plaintiffs Complaint fails to
sufficiently allege common law fraud as required by DC Super. Ct. R. 9.

4

The elements of common law fraud are: "(1) a false representation (2) in reference to
material fact, (3) made with knowledge of its falsity, (4) with the intent to deceive, and (5) action
is taken in reliance upon the representation." Bennett v. Kiggins, 377 A.2d 57, 59-60 (D.C.
1997). Satisfaction of Rule 9(b) ordinarily requires a plaintiff to "'state the time, place and
content of the false misrepresentations [sic], the fact misrepresented and'what was retained or
given up as a consequence of the fraud."' D'Ambrosio v. Colonnade Council of Unit Owners, 717
A.2d 356, 357, 361 (D.C. 1998) (quoting Kowal v. MCICommc'ns. Corp., 16 F.3d 1271, 1278
(D.C. Cir. 1994)). “One pleading fraud must allege such facts as will reveal the existence of all
the requisite elements of fraud. Facts which will enable the court to draw an inference of fraud
must be alleged, and allegations in the form of conclusions on the part of the pleader as to the
existence of fraud are insufficient.” Bennett v. Kiggins, 377 A.2d 57, 60 (D.C. 1977).
Plaintiff s Complaint does not indicate the material facts made by Defendants

v •

constituting the false representation of the purported fraud claim, nor does it indicate an action
Plaintiff has taken in reliance upon a false representation. Further, regarding the time Plaintiff
received a fraudulent barring notice, the Complaint only relates that they were issued for “five
year periods ... from 2009-2014, 2014-2019, 2019-2024;” providing the year in which a fraud
occurred is not adequate particularity that would enable a defendant to prepare a defense.
Plaintiffs recitation of the “Law Enforcement Oath of Honor” and “Oath of Office”
provide no cognizable claim for legal relief. Similarly, the allegation in the Complaint that
“Defendants/Officers violated the ‘Color of Law’ code in that there was no probable cause for
them to appear onsite at the PBGC [location]” because Plaintiff had documents proving her right
to work there does not state a valid claim. Plaintiffs Complaint does not contain an allegation

5

that she was falsely arrested under color of law or detained without probable cause in violation of
the 4th Amendment of the US Constitution.
In conclusion, the Court finds that Plaintiffs vague allegations do not state a claim for
relief even when accepting the allegations as true and making all reasonable inferences in
Plaintiff s favor. The Complaint simply lacks “a short and plain statement of the claim showing
that the pleader is entitled to relief,” Super. Ct. Civ. R. 8 (a)(2), and fails to put “the defendant on
notice of the claim against [it].” Scott v. District ofColumbia, 493 A.2d319, 323 (D.C. 1985).
Indeed, the Complaint does not even include “threadbare recitals of the elements” of a civil cause
of action or “conclusory statements” that would establish a viable civil claim, let alone facts to
support such a claim. See Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (threadbare recitals and
conclusory statements are insufficient without supporting facts). Therefore, as Plaintiffs
Complaint fails to state a claim showing Plaintiff is entitled to relief, the Court grants
Defendant’s Motion to Dismiss Plaintiffs Complaint as to all Defendants, even those which
have not been properly served to this point. It is this 27th day of November, 2019, hereby
ORDERED that Defendant LaRosa’s Motion to Dismiss is GRANTED; and it is further
ORDERED that the Complaint is DISMISSED and this case is CLOSED.

A
Kelly A. Higashi
Associate Judge
(Signed in Chambers)
COPIES TO:
Tiffany Releford
Via CaseFileXpress

6

Mechele Parker
170 Moore Street
Norman, NC 28367

7

(Order Denying Ms. Parker's Petition for Rehearing or Rehearing En Banc, dated July 19, 2021)

APPENDIX E

©strict of Columbia
Court of Slppcate
P

P

l

j

No. 19-CV-1253

JUL19 2021

MECHELE R. PARKER,

OISTRICT OF COLUMBIA
COURT OF APPEALS

Appellant,
v.

CAB5601-19

SARA LA ROSA, et al.,
Appellees.
BEFORE: Blackbume-Rigsby, Chief Judge; Glickman, Thompson, *
Beckwith, Easterly, McLeese, and Deahl, * Associate Judges; Ferren, *
Senior Judge.
ORDER
On consideration of appellant’s petition for rehearing or rehearing en banc,
and it appearing that no judge of this court has called for a vote on the petition for
rehearing en banc, it is
ORDERED by the merits division* that appellant’s petition for rehearing is
denied. It is
FURTHER ORDERED that appellant’s petition for rehearing eh banc is
denied.
PER CURIAM

No 19-CV-1253
Copies emailed to:
Honorable Kelly Higashi
Director, Civil Division
Copy mailed to:
Mechele R. Parker
1316 Fenwick Lane
Apartment 606
Silver Spring, MD 20920
Copy e-served to:
Tiffany M. Releford, Esquire
pn

Additional material
from this filing is
available in the
Clerk's Office.

